Nos. 20-543 & 20-544

In the Supreme Court of the United States
JANET L. YELLEN,
SECRETARY OF THE TREASURY, PETITIONER
v.
CONFEDERATED TRIBES
OF THE CHEHALIS RESERVATION, ET AL., RESPONDENTS
ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC., ET AL., PETITIONERS
v.
CONFEDERATED TRIBES
OF THE CHEHALIS RESERVATION, ET AL., RESPONDENTS
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

MOTION REGARDING ORAL ARGUMENT

Jeffrey S. Rasmussen (Counsel of Record)
Frances C. Bassett
Jeremy J. Patterson
Patterson Earnhart Real Bird & Wilson
1900 Plaza Drive
Louisville, CO 80027
Phone: (303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
rwilson@nativelawgroup.com

CERTIFICATE OF SERVICE
I, Jeffrey S. Rasmussen, of lawful age, hereby CERTIFY that I did cause, on the
31st day of March, 2021, to be sent out from Frederick, Colorado 3 packages
containing the MOTION REGARDING ORAL ARGUMENT in the above-entitled case.
All parties required to be served have been served by U.S. mail postage-prepaid.
Packages were plainly addressed to the following:
Elizabeth B. Prelogar, Esq.
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
Paul D. Clement, Esq.
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
Paul.clement@kirkland.com

Riyaz Amir Kanji, Esq.
Kanji & Kantzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
rkanji@kanjikatzen.com
/Jeffrey S. Rasmussen/
Jeffrey S. Rasmussen (Counsel of Record)
Frances C. Bassett
Jeremy J. Patterson
Patterson Earnhart Real Bird & Wilson
1900 Plaza Drive
Louisville, CO 80027
Phone: (303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
rwilson@nativelawgroup.com

